May 14, 2007

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – Postal Service Facilities Maintenance and Repair Costs
         (Report Number CA-AR-07-003)

This report presents the results of our audit of the maintenance and repair costs of
postal-owned or leased facilities (Project Number 06YG004FA000). This audit was self-
initiated to determine whether the U.S. Postal Service can realize cost savings by
optimizing the planning and recording of maintenance repairs and alterations of postal-
owned and leased facilities. Specifically, we evaluated the Postal Service’s systems
and processes used to identify repairs and alterations, authorize funding, prioritize
repairs, budget, and account for repairs and alteration expenses.

                                      Background
Facilities is an enabling organization within the Postal Service whose primary mission is
to: (1) provide quality real estate, facilities products, and services to meet the present
and future needs of postal organizations and (2) realize optimum value from facilities
assets and transactions. Facilities’ headquarters is located in Arlington, Virginia, and
there are eight Facilities Services Offices (FSO) throughout the country.

The FSOs accomplish the majority of the Postal Service facilities program work. This
includes planning, leasing, purchasing, designing, and constructing facilities to house
postal operations. Organizational administration, policy and procedure development,
and realty asset management functions were administered from Facilities’
headquarters. Now the FSOs are administering these functions.

Facilities budgets for major facility projects and several special programs and corporate-
wide activities. The FSOs plan, prioritize, and budget all other facility projects with input
from the areas/districts.

Historically, the districts’ Administrative Service Offices (ASO) generally handled all
facilities repairs and alterations that cost less than $100,000. The ASOs also enforced
lessor maintenance issues and used contractors to paint, replace flooring and ceiling
tiles, maintain handicapped ramps, and perform other repairs as needed. When repairs
and alterations exceeded $100,000, the FSOs took over responsibility for the work.
Maintenance and Repair Costs                                                                   CA-AR-07-003



The Postal Service re-engineered the facilities support process by developing the
Facilities Single Source Provider (FSSP) program. Each postal area was to implement
this program by the end of fiscal year (FY) 2005. Under the FSSP program, the Postal
Service incorporated all facilities services previously provided by the FSO, ASO, and
the area Processing and Distribution Team under the management of the FSO.
Additionally, facility repair work and lessor maintenance enforcement services managed
by postmasters were also assumed by the FSO. With the implementation of the FSSP
program, the planning and approval staff will assist the districts, areas, and FSOs in the
planning and approval process for all capital and expense repair and alteration projects.

Management offers repairs and alterations that are the responsibility of the Postal
Service to the Field Maintenance Office in accordance with Handbook EL-912.1 The
Field Maintenance Office may elect or decline to perform the work for various reasons,
including cost, efficiency, availability of equipment, and qualification of employees. If
the Field Maintenance Office performs the work, the Postal Service incurs only material
costs, as payroll already absorbs labor costs. Conversely, if the Field Maintenance
Office declines the work, the Postal Service contracts it to private entities and incurs
labor and material costs.

Repair and alteration expenses are accounted for in expense account classification
code 3B of the Postal Service Financial Report (PSFR). Capital repairs and alterations
are defined as expenditures that add value to a facility and are accounted for as
code 63 in the PSFR. The FSO determines whether the expenditure is accounted for
as code 3B or code 63.

                           Objective, Scope, and Methodology
The objective of this review was to determine whether the Postal Service could realize
cost savings by optimizing the planning and recording of maintenance repairs and
alterations of postal-owned and leased facilities. Specifically, we evaluated the Postal
Service’s systems and processes used to identify repairs and alterations, authorize
funding, prioritize repairs, budget, and account for repairs and alteration expenses.

To accomplish our objective, we reviewed applicable Postal Service policies and
procedures. We interviewed Postal Service officials to gain an understanding of the
procedures for postal facility repairs and alterations. We reviewed supporting
documentation for a stratified statistical random sample of a universe of 6,250 repair
and alteration expense projects from FYs 2004 and 2005 in four judgmentally selected
areas (Great Lakes, Northeast, Southeast and Western) that we visited. We traced
repair and expense payments to the general ledger. We also researched other federal
agencies and businesses for best practices in the area of maintenance, repairs, and
alteration expense management.

1
 Agreement between United States Postal Service and American Postal Workers Union, AFL-CIO 2000-2003, Article
32.




                                                      2
Maintenance and Repair Costs                                                    CA-AR-07-003



We conducted this audit from February 2006 through May 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials on February 20, 2007, and
included their comments where appropriate.

                               Prior Audit Coverage
Our review of U. S. Postal Service Office of Inspector General’s (OIG) prior audits
disclosed information specifically related to the survey objectives. Over a period of 5
years, there have been four audits/reports on the subject of, or related to, maintenance
and repair costs. The Government Accountability Office (GAO) also conducted an audit
in 1999 that directly relates to this audit.

   1. Management Advisory — Data Integrity and Reliability of the Facilities Single
      Source Provider System (Report Number FA-MA-05-002, dated August 11,
      2005). This report identified errors in the acceptance rates recorded in the FSSP
      system for 34 districts in the Southeast Area. Backdating transactions was not
      restricted and there was no log or audit trail to track changed or deleted
      transactions.

   2. Repairs and Alterations of Postal Service Facilities (Report Number CA-MA-04-
      005, dated July 23, 2004). Postal Service officials in the Dallas District effectively
      managed expensed repairs and alterations for Postal Service buildings and
      leased facilities. Specifically, district ASO personnel developed an annual plan
      for expensed repairs and alterations projects and they started or completed all
      approved expensed repairs and alterations projects during FY 2003. However, in
      FY 2003, it appeared the Dallas District did not appropriately use funds budgeted
      for expensed repairs and alterations, which would cause Postal Service facilities
      to require more costly future repairs.

   3. Facility Conditions at Groton, Connecticut (Report Number LH-AR-03-010 dated
      May 29, 2003). This report identified eight potential unsafe working conditions
      due to months or years of neglected maintenance. The unsafe working
      conditions included electrical shock and safety hazards, questionable bacteria,
      and mold.

   4. Allegations of Unsafe Working Conditions at the Dallas Downtown Station
      (Report Number LM-AR-00-002 dated March 20, 2000). The OIG conducted the
      audit in response to allegations made by a former Dallas Downtown Station
      employee as well as a union official. The audit confirmed three of the five
      allegations, as well as several others, which were not included in the original
      allegations. These conditions increased the risk of injury to Postal Service
      employees and customers, and compromised Postal Service property.




                                             3
Maintenance and Repair Costs                                                       CA-AR-07-003




   5. The GAO report titled Military Infrastructure, Real Property Management Needs
      Improvement (Report Number GAO/NSAID-99-100, dated September 1999)
      reported the Department of Defense did not have a comprehensive strategy for
      maintaining the services' infrastructure. Rather, each service set its own strategy
      for maintaining it. As a result, the services differed in the way they rated property
      conditions, prioritized repairs, and allocated resources.

       The GAO also found that there was little relation between identified real property
       management needs and the funds the services allocated for it. None of the
       services' real property management spending plans provided sufficient funding to
       keep their total backlog of repairs at current levels.

       GAO auditors identified several promising best practices:

           •   Establishing a single system for assessing facility conditions.

           •   Prioritizing budget allocation based on physical condition, relevance of
               facilities to the mission, and life cycle costing and budgeting.

           •   Setting up a single property management budget that is controlled by a
               central office with the power to shift resources to facilities with the greatest
               need.

           •   Restricting real property management funds for maintenance purposes.

           •   Charging an annual maintenance fee, based on square feet used, to
               ensure adequate funding for facilities.

                                          Results
Our review of four FSOs indicated the Postal Service could reduce costs associated
with facility repair and alteration by taking a more proactive approach. Industry and
other government agencies have found management can best control repair and
alterations expenses when they are highly proactive. A highly proactive approach to
repairs and alterations projects requires a national strategy that includes regular facility
inspections.

A comprehensive national strategy program that includes regular inspections will allow
the Postal Service to control future repair and alteration costs and reduce the risk of
incurring greater costs by identifying problems earlier. The Postal Service has not fully
implemented a comprehensive national strategy for repairs and alterations. In addition,
insufficient budgeting for repairs and maintenance may be hampering the Postal




                                               4
Maintenance and Repair Costs                                                                     CA-AR-07-003



Service’s ability to be proactive. The Postal Service spends less than the national
average for repairs and alterations of its facilities than similar businesses.2

During the audit we also noted several accounting issues related to the recording of line
3B expenditures. We noted expenses that should be recouped from the landlord
through rent reduction instead of being expensed. We also noted lease support
expenses that were recorded on line 3B because there were no other expenditures lines
available for recording this. Finally, we observed credit card charges corresponding to
line 3B that were recorded on other expenditure lines due to the coding of credit card
transactions during processing.

A Proactive Approach to Repairs and Alterations is the Preferred Practice

A proactive approach to repairs and alterations appears to be a better practice than a
reactive one. For example, a National Aeronautics and Space Administration report,
dated January 2001, set a goal of less than 30 percent for reactive maintenance. In
1999, General Motors and the United Auto Workers agreed that 70 percent of all
maintenance work would be proactive. In January 2001, General Motors reached their
1999 goal and raised it to an 80/20 ratio.

The following organizations use or suggest a proactive approach to maintenance and
repairs.

    •   The State of Georgia’s Department of General Administration, Division of Capitol
        Facilities, depends on a proactive approach to maintenance because the reactive
        approach only defers expenses and results in a greater loss of money, property,
        and work time.

    •   The Lyons/Waldron Consulting Group suggests adopting a proactive roof
        maintenance program that allows most companies to save money annually.

    •   The Commission on Engineering and Technical Systems, a committee of the
        Division on Engineering and Physical Sciences, National Research Council,
        recommends the federal government strategically plan maintenance and repair of
        its facilities in order to optimize available resources, maintain the functionality
        and quality of federal facilities, and protect the public’s investment.

In an effort to proactively identify facilities repairs, three Postal Service FSOs currently
use an “Open Season” process. For a 30-day period at the beginning of the fiscal year,
all districts are asked to turn in their problems through the FSSP program. The issues
are recorded, prioritized, and — if funding is approved — the work is planned. Since


2
 Retail business and factory plant operation and maintenance average costs as reported by the International
Facilities Management Association (IFMA) benchmarks in 2005. IFMA is the largest and most widely recognized
professional association for facility management, supporting more than 18,500 members.




                                                       5
Maintenance and Repair Costs                                                                             CA-AR-07-003



Facilities has found this process to be effective, it held a national open season recently
to support the budget process.

Policies and Procedures to Proactively Identify Potential Repairs and Alterations
of Facilities Need Improvement

Generally, the Postal Service does not perform inspections or preventative maintenance
of customer service facilities to prevent unplanned repairs and alterations. According to
Postal Service officials, the FSOs do not have the manpower or the resources to perform
the required inspections. Additionally, facilities personnel do not think local building
managers possess the expertise to conduct the inspections. In an effort to address
these issues, Facilities Management initiated a pilot program with the Logistics
Management Institute (LMI) to conduct inspections of Postal Service customer service
facilities. To enhance this program, the Postal Service hired contracted building
inspectors and held formal training in March 2007.

Without proactive facility inspections, the Postal Service will not have adequate control
over future repair and alteration costs and will risk incurring greater costs by not
identifying problems earlier in the process. For example, the Postal Service could have
avoided unsafe working conditions and additional costs of repairs at two sites by being
more proactive with facility inspections. Specifically, in FY 2003, we reported the Groton,
Connecticut, Post Office had eight potentially unsafe working conditions due to months
or years of neglected maintenance. This included electrical shock and safety hazards,
questionable bacteria, and mold. We also reported in FY 2000, that the Dallas
Downtown Station had unsafe working conditions that included water leaks that caused
electrical and fire hazards, deteriorating lead-based paint, and falling debris.

According to Handbook RE-13,3 inspections are to be performed on each building
(whether owned or leased) every 5 years. However, that requirement has not been
enforced because, according to Postal Service officials, the FSOs do not have the
manpower or the resources to perform the required inspections. Although the Postal
Service is updating the handbook, best practices dictate the need for regular facility
inspections. Facility inspection best practices include the General Motors Corporation
using an outside auditing firm to inspect its facilities twice a year. Also, the Florida
Legislature Office of Program Policy Analysis and Government Policy reported that an
effective proactive maintenance program can reduce maintenance and operations costs,
reduce service outages, and extend the useful life of expensive buildings systems. The
report concluded that the program should include routine inspections of facilities and
custodial operations.

While we identified a FSO that strives to keep unplanned projects (reactive) at 33
percent, approximately 49 percent of the 452 repair and alteration expense projects


3
    Repair and Alteration of Real Property Facilities, Sections 230, 231, and 232, dated October 30, 1987.




                                                            6
Maintenance and Repair Costs                                                   CA-AR-07-003



reviewed were unplanned. Our analysis of best practices at other federal agencies and
businesses noted goals that limit reactive maintenance to 20-30 percent.

Recommendation

We recommend the Vice President, Facilities:

1. Inspect Postal Service facilities at least once every 5 years to build upon the current
   efforts of the Facilities Services Offices to establish a more proactive repairs and
   alterations program.

Management’s Comments

Management agreed with the finding and recommendation and stated they are
implementing a standardized approach to the identification, pricing and prioritization of
building repairs, and a formal building inspection program. Management stated that
postmasters will complete a web-based self-assessment for buildings less than 6,500
square feet. In addition, Facilities contract employees will inspect buildings that are
greater than 6,500 square feet every 3 years. Management stated that Postal Service
maintenance staff will conduct inspections of large plants annually, with a cross-
functional engineering team conducting a more thorough inspection every 5 years.

Management stated Facilities is currently working with Maintenance to capture this
information in a central database to allow for prioritization and budgeting of necessary
repairs. In addition, Facilities is making the self-assessment module available to all
postmasters and station managers in customer service facilities from April 2 through
May 11, 2007, as part of a national open season to report building deficiencies.
Management’s comments in their entirety are included in the appendix to this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation and actions planned
should correct the issue identified in the finding.

The Postal Service Does Not Have a Comprehensive National Management
Strategy for Repairs and Alterations

The Postal Service is hampered by not having a comprehensive national management
strategy for maintaining its facilities. National management strategies give
organizations guidelines for critical processes and help address issues that negatively
affect the organization. A comprehensive national management strategy would provide
clarity to repairs and alterations issues throughout the Postal Service and allow it to
better leverage its resources.




                                             7
Maintenance and Repair Costs                                                    CA-AR-07-003



Although the FSSP program is an attempt to address this issue nationally, each FSO
establishes its own criteria for assessing the condition of its properties, urgency of
repairs, prioritization of needs, and allocation of money for repairs and alterations. This
results in inconsistency among FSOs and makes it difficult to benchmark the FSOs
against one another to determine how to ensure the greatest return on investment. As
a result, there is disparity among the different areas regarding what is repaired and the
priorities for those repairs.

Other national initiatives the Postal Service is implementing are the Open Season
program and the use of contracted facility inspectors. In addition, the FSO, rather than
the area, will manage the 3B budget. The combination of these factors indicates that
Facilities management is moving toward a comprehensive national management
strategy.

Recommendation

We recommend the Vice President, Facilities:

2. Enhance efforts to develop and implement a comprehensive national management
   strategy to provide overall guidelines for the repairs and alterations program.

Management’s Comments

Management agreed with the recommendation and stated that recognizing the
importance of these initiatives, they have established a new position, Manager, Repair
and Alteration Programs. Management anticipates filling this position by the end of
summer 2007. This new manager will work with the Manager, Facilities Field
Operations to develop strategies for a national program that will include process
standardization and performance measurement. In addition, management has
implemented a “red/green” report card in order to maintain focus on objectives and
identify potential shortcomings. Also, Managers, Design and Construction, in the FSO’s
are now required to audit their project managers annually to assure consistency of
process and budget management.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation and actions planned
should correct the issue identified in the finding.

The Postal Service Spends Less Than Industry Standard on Maintenance and
Repair Costs Per Square Foot

In FY 2005, Facilities personnel calculated the Postal Service facility maintenance cost
averaged $.65 per square foot. This figure did not include large plants that have their
own maintenance staff. In comparison, the federal government spent $1.83 per square




                                             8
Maintenance and Repair Costs                                                                     CA-AR-07-003



foot, and the retail industry spent $1.90.4 Further, in March 2005, Whitestone
Research5 conducted an annual comparison of maintenance and repair costs, and
found the annual average paid for a two-story office building was over $2 per square
foot. This issue becomes more critical when considering the aging facility inventory of
the Postal Service. Specifically, 37 percent of the net square feet are in buildings over
30 years old.

The LMI study conducted in FY 2005 found that 53 percent of Postal Service customer
services facilities inspected were in either marginal or poor condition. The study also
concluded that an average 47 percent of the facilities were past their architectural,
electrical, and mechanical life cycle. Senior Facilities management shared the concern
that without more spending on repairs and alteration those costs will turn into capital
projects in the future. Without adequate spending on maintenance and repairs costs,
the Postal Service risks spending more on replacement and capital projects because
repairs are not identified earlier in the process.

Recommendation

We recommend the Vice President, Facilities:

3. Determine if spending for repairs and alterations is adequate to allow for optimum
   service for the Postal Service’s facilities in conjunction with a comprehensive
   national management strategy.

Management’s Comments

Although management did not specifically state their agreement with this
recommendation, they indicated that their research is consistent with the findings
documented in this report. Further, management stated in general, it appears that
Postal Service funding for expense repairs falls short of industry averages.
Management believes the inspection program will assist them in developing reliable,
needs based budgets, and in prioritizing projects. Management stated they are
currently developing budget proposals for FY 2008, and the national open season
concluded on May 11, 2007, will support the proposals.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation and actions planned
should correct the issue identified in the finding.



4
  Average maintenance costs as reported by IFMA operations and maintenance benchmark.
5
  Whitestone Research specializes in applied economic research and software development. They annually publish
the Whitestone Building Maintenance and Repair Cost Reference, which details maintenance and repair cost
statistics for 200 U.S. metropolitan areas and 10 Canadian cities.




                                                       9
Maintenance and Repair Costs                                                  CA-AR-07-003



Other Items

Lessor Responsible Expenses

While reviewing FSO project files in the Great Lakes Area, we found management did
not recoup expense costs for two lease repair projects. The FSO paid the expense to
expedite the repairs even though the lease agreements required the lessor to do so.
Later, management attempted to recoup the cost of repairs, but did not continue to
follow up because of a change in personnel. FSO management told us they were
unaware these expenses had not been recouped.

We brought this issue to the attention of the Great Lakes FSO who is now recouping the
repair expense through rent reduction (totaling $22,396). Therefore, we are not making
a recommendation at this time. We will be reporting the $22,396 as a recoverable
questioned cost in our Semiannual Report to Congress.

Non-Repair and Alteration Expenses Charged to Line 3B

We found the FSOs recorded lease support to the repair and alterations expense line
3B. This includes advertisement, drawings and studies, site selection, and rental
appraisals. There is no other option available to record these expenses when making
payments in the Facilities Management System. Expenses recorded to an expense line
should meet the definition of the line item. Because of this practice, the expense line
does not reflect actual costs of repair and alterations.

We discussed with management the possibility of creating a separate General Ledger
Account for these types of expenses and determined that there would be no benefit
because the amount of lease support expensed to line 3B is immaterial (1.31 percent of
total repairs and alterations expenditures during scope period).

Credit Card Charges

We also found that credit card charges for repair and alteration were expensed to lines
other than 3B. These charges were recorded to lines 31 (supplies), 34 (services), and
37 (equipment rent and repair). This issue is a result of Standard Industry Codes (SIC)
assigned to vendors by the credit card companies that are mapped to accounts on the
general ledger other than repairs and alterations.

Although we found $70,000 of these incorrect charges in one area in FY 2005, this
amount is immaterial in relation to the over $256 million that was spent on repairs and
alterations in FY 2005. In addition, management informed us they are implementing
procedures to review the vendor SIC code and what is being purchased.

We made these observations during the course of our audit and we are not providing
recommendations at this time.




                                           10
Maintenance and Repair Costs                                                CA-AR-07-003



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.

 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Support Operations

Attachment

cc: Susan M. Brownell
    Megan J. Brennan
    Jo Ann Feindt
    Terry J. Wilson
    Sylvester Black
    Rowena C. Dufford
    Katherine S. Banks




                                           11
Maintenance and Repair Costs                            CA-AR-07-003



                      APPENDIX. MANAGEMENT’S COMMENTS




                                   12
Maintenance and Repair Costs        CA-AR-07-003




                               13
